           Office of Inspector General




March 29, 2004

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

JO ANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

SUBJECT:         Audit Report – Highway Network Scheduling – Great Lakes Area
                 (Report Number NL-AR-04-003)

                                           Background

This is the ninth and last in a series of audit reports on highway network scheduling.
The report responds to a request from the vice president, Network Operations
Management, and focuses on the Great Lakes Area. (Project Number
02YG017TD007).




                         Highway contract route departing with low mail volume.


                              Objective, Scope, and Methodology
   The objective of our audit was to evaluate the effectiveness of scheduled highway
   contract routes, and to identify opportunities for cost savings. The vice president,

   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
Highway Network Scheduling – Great Lakes Area                                  NL-AR-04-003



Network Operations Management, provided a list of plant-to-plant highway contract
routes he wanted considered for elimination or consolidation. There were 1,979 trips
operated under 207 Great Lakes Area contracts. In preparation for our work, we
provided plant managers in the Great Lakes Area with the list of contracts we intended
to audit. During our work, we interviewed officials at headquarters and in the Great
Lakes Area; reviewed relevant Postal Service policies and procedures; visited
19 processing facilities; interviewed managers and employees; observed and
photographed operations. In addition, we analyzed data in the Postal Service
“Transportation Information Management Evaluation System,” evaluated mail volume
and critical entry times for First-Class and Priority Mail; and analyzed all 1,979 trips.
Although we relied on the data obtained from the Transportation Information
Management Evaluation System, we did not test the validity of controls over the system.
Work associated with the Great Lakes Area was conducted from August 2003 through
March 2004 in accordance with generally accepted government auditing standards, and
included such tests of internal controls as were considered necessary under the
circumstances. We discussed our findings with appropriate management officials and
included their comments, where appropriate.

                                   Prior Audit Coverage
We conducted eight audits from January 2002 to February 2004. (See Appendix A.)

                                        Audit Results
Unnecessary Highway Contract Trips

The Postal Service could save about $5.4 million over the term of existing Great Lakes
Area highway contracts by canceling or not renewing 72 unnecessary trips. The Postal
Service could eliminate the trips without negatively affecting service because trip mail
volume was low, and mail could be consolidated on other trips. As indicated below,
about 25 percent of affected trips will expire within one year. The other 75 percent have
one to three years remaining.
                   TRIP                    AFFECTED      NUMBER OF   ANTICIPATED
                 CATEGORY                    TRIPS         TRIPS       SAVINGS

       Contracts expiring within
       one year                            25 percent       18        $1,048,304

       Contracts expiring in one to
       three years                         75 percent       54         4,304,573

       All Terminated Trips                100 percent      72        $5,352,877


Savings could be attained by not renewing contract trips identified as unnecessary that
are scheduled to expire within one year and canceling unnecessary trips that are



                                                2
Highway Network Scheduling – Great Lakes Area                                   NL-AR-04-003



currently contracted to continue one to three years. The savings we identified included
savings from nonrenewable trips, plus savings from trip cancellations net of cancellation
fees totaling approximately $140,000.

After we completed our analysis, we discussed the 72 trips with plant managers and
area officials. Postal Service officials identified two trips for cancellation during our
audit. In addition, plant managers agreed they could cancel an additional 48 trips, but
disagreed with our assessment on 22 of the trips. The trip cancellation proposals are
summarized below:
                               TRIP CANCELLATION PROPOSALS

                   CANCELLATION                  NUMBER                IDENTIFIED
                     CATEGORY                    OF TRIPS   APPENDIX     SAVING

       Postal Service identified trip
       cancellations during the audit after we
       provided the list of contracts we              2        B          $56,489
       intended to audit.

       Trips we identified during audit work
       with which plant managers agreed.             48        C        3,929,187

       Trips we identified during audit work
       with which plant managers disagreed.          22        D        1,367,201

       Total                                         72                $5,352,877

The plant managers disagreed with the 22 proposals for various reasons. We continue
to believe the potential exists for trip cancellation without jeopardizing service,
operational flexibility, and savings.

Recommendations

We recommend the vice president, Great Lakes Area Operations:

   1. Verify the actual cancellation of the two trips identified by management during the
      course of our audit.

   2. Cancel the 48 trips, which plant managers agree are unnecessary and give the
      date action was taken.

   3. Reassess the 22 trips plant managers feel are necessary, cancel trips indicated
      by the reassessment as unnecessary, and document the reasons for retaining the
      other trips.




                                                 3
Highway Network Scheduling – Great Lakes Area                                 NL-AR-04-003



Management’s Comments

Management concurred with the intent of our findings and recommendations.
Regarding the 72 trips we identified for elimination, management stated that they
eliminated 38 and had review or final action pending on 34. They stated most
cancellations were as agreed, but explained network management was a dynamic
process, transportation requirements continually changed, and some recommended
eliminations might now impact service. They agreed to reassess all recommended trip
cancellations, retain or eliminate trips as their reassessment indicated, and provide
documentation to the OIG to support their determination.

Regarding monetary impact, management stated they could not validate savings at this
time. They explained their normal methodology restricted calculations to a one-year
budget cycle, while OIG methodology extended to contract term. They also explained
that continually changing requirements, and the reassessment they agreed to do, might
result in trip substitutions or adjustments, and cause anticipated savings to differ from
OIG calculations. They agreed that when their reassessment was complete, they would
work with the OIG to reconcile methodologies, and report anticipated savings.

Evaluation of Management’s Comments

Management’s comments are responsive to our findings and recommendations. We
consider the actions taken or planned sufficient to address the issues we identified.

The OIG considers recommendations 1, 2, and 3 significant and, therefore, requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when action is completed, These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during our audit. If
you have any questions or need additional information, please contact Joe Oliva,
director, Network Operations - Logistics, at (703) 248-2317 or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: Patrick R. Donahoe
    Anthony M. Pajunas
    Susan M. Duchek




                                                4
Highway Network Scheduling – Great Lakes Area                                   NL-AR-04-003



                   APPENDIX A. PRIOR REPORT COVERAGE
Our audit report, Highway Network Scheduling – Pacific Area (Report Number
TD-AR-02-003, dated September 24, 2002), identified 158 highway contract trips we
thought could be eliminated, and consequently result in savings to the Pacific Area of
about $4.5 million. Management agreed with 124 trip terminations, but subsequently
made certain substitutions they considered appropriate. Although local plant managers
disagreed with 34 trips we identified, management agreed to reassess the trips, retain
or eliminate trips as appropriate, and notify the OIG of all canceled trips, as well as the
resulting savings. We considered management’s actions responsive to our
recommendations.

Our audit report, Highway Network Scheduling – Northeast Area (Report Number
TD-AR-03-002, dated November 25, 2002), identified 18 highway contract trips we
thought could be eliminated, and consequently result in savings to the Northeast Area of
about $777,000. Management agreed with ten trip terminations, but subsequently
made certain substitutions they considered appropriate. Although local plant managers
disagreed with eight trips we identified, management agreed to reassess the trips, retain
or eliminate trips as appropriate, and notify the OIG of all canceled trips, as well as the
resulting savings. We considered management’s actions responsive to our
recommendations.

Our audit report, Highway Network Scheduling – Capital Metro Area (Report Number
TD-AR-03-007, dated March 28, 2003), identified 34 highway contract trips we thought
could be eliminated, and consequently result in savings to the Capital Metro Area of
about $1.1 million. Management agreed with 20 trip terminations, but subsequently
made certain substitutions they considered appropriate. Although local plant managers
disagreed with 14 trips we identified, management agreed to reassess the trips, retain
or eliminate trips as appropriate, and notify the OIG of all canceled trips, as well as the
resulting savings. We considered management’s actions responsive to our
recommendations.

Our audit report, Highway Network Scheduling – New York Metro Area (Report Number
TD-AR-03-008, dated March 31, 2003), identified 32 highway contract trips we thought
could be eliminated, and consequently result in savings to the New York Metro Area
of about $470,000. Management agreed with 12 trip terminations and canceled all
12 trips. Although local plant managers disagreed with 20 trips we identified,
management agreed to reassess the trips, retain or eliminate trips as appropriate, and
notify the OIG of all canceled trips, as well as the resulting savings. We considered
management’s actions responsive to our recommendations.

Our audit report, Highway Network Scheduling – Southwest Area (Report Number
TD-AR-03-010, dated July 11, 2003), identified 249 highway contract trips we thought
could be eliminated, and consequently result in savings to the Southwest Area of about
$6 million. Management agreed with 148 trip terminations, but indicated they may make




                                                5
Highway Network Scheduling – Great Lakes Area                                     NL-AR-04-003



certain substitutions they considered appropriate. Although local plant managers
disagreed with 101 trips we identified, management agreed to reassess the trips, retain
or eliminate trips as appropriate, and notify the OIG of all canceled trips, as well as the
resulting savings. We considered management’s actions responsive to our
recommendations.

Our audit report, Highway Network Scheduling – Western Area (Report Number
TD-AR-03-013, dated September 23, 2003), identified 70 highway contract trips we
thought could be eliminated, and consequently result in savings to the Western Area of
about $2.7 million. Management agreed with 30 trip terminations, but indicated they
may make certain substitutions they considered appropriate. Although local plant
managers disagreed with 40 trips we identified, management agreed to reassess the
trips, retain or eliminate trips as appropriate, and notify the OIG of all canceled trips, as
well as the resulting savings. We considered management’s actions responsive to our
recommendations.

Our audit report, Highway Network Scheduling – Southeast Area (Report Number
TD-AR-03-014, dated September 26, 2003), identified 101 highway contract trips we
thought could be eliminated, and consequently result in savings to the Southeast Area
of about $11.3 million. Management agreed with 77 trip terminations, but indicated they
may make certain substitutions they considered appropriate. Although local plant
managers disagreed with 24 trips we identified, management agreed to reassess the
trips, retain or eliminate trips as appropriate, and notify the OIG of all canceled trips, as
well as the resulting savings. We considered management’s actions responsive to our
recommendations.

Our audit report, Highway Network Scheduling – Eastern Area (Report Number
TD-AR-03-015, dated September 30, 2003), identified 181 highway contract trips we
thought could be eliminated, and consequently result in savings to the Eastern Area of
about $10.6 million. Management agreed with 128 trip terminations, but indicated they
may make certain substitutions they considered appropriate. Although local plant
managers disagreed with 53 trips we identified, management agreed to reassess the
trips, retain or eliminate trips as appropriate, and notify the OIG of all canceled trips, as
well as the resulting savings. We considered management’s actions responsive to our
recommendations.
.




                                                6
        Highway Network Scheduling – Great Lakes Area                                        NL-AR-04-003




                                                    APPENDIX B
                                     POSTAL SERVICE IDENTIFIED TRIPS CANCELED
                           AFTER WE PROVIDED THE LIST OF CONTRACTS WE INTENDED TO AUDIT
 Contract
End Date
(Effective
 Date of      Highway                                                                        Annual                                   Estimated
   Last       Contract       Trip                                                            Budget         Contract     Indemnity      Cost
 Change)       Route        Number                       Origin/Destination                   Cost          Savings         Fees       Savings

 6/30/04                               Saginaw Processing and Distribution Center to Flint
(8/11/01)      48710        5 and 6    Processing and Distribution Center and Return           $14,423         $56,489     $      0      $56,489
               Total        2 Trips                                                            $14,423         $56,489           $0      $56,489




                                                                            7
        Highway Network Scheduling – Great Lakes Area                                              NL-AR-04-003




                                                        APPENDIX C
                                      TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                                                 PLANT MANAGERS AGREED
 Contract
End Date
(Effective
 Date of     Highway                                                                              Annual     Estimated                  Estimated
   Last      Contract      Trip                                                                   Budget      Contract      Indemnity     Cost
 Change)      Route       Number                        Origin/Destination                         Cost        Cost            Fees      Savings

6/30/07       607M5     901 and       Chicago Metro Surface Hub to Cleveland Processing           $297,362    $991,208             $0     $991,208
(7/1/03)                902           and Distribution Center and Return
6/30/07       623L0     9 and 10      Quincy Processing and Distribution Center to Quincy            2,614          8,713           0        8,713
(7/1/03)                              Facility and Return
6/30/07       63217     803 and       St. Louis Bulk Mail Center to Cincinnati Bulk Mail Center    206,197        687,325           0      687,325
(7/1/03)                804           and Return
6/30/07       607L9     7 and 8       Chicago Metro Surface Hub to Milwaukee Processing             87,853        292,844           0      292,844
(7/1/03)                              and Distribution Center and Return
6/30/07       60893     801 & 802     Chicago Metro Surface Hub to Portage Facility and            158,670        528,902           0      528,902
(7/1/03)                              Return
6/30/04       606L3     3101,         Airport Mail Center O’Hare to Chicago Metro Surface           56,824        222,561           0      222,561
(2/22/03)               3102,         Hub and Return
                        3103,
                        3104,
                        3301,
                        3302,
                        3303, and
                        3304
12/26/03      484ET     7 and 8       Flint Processing and Distribution Center to Lansing           47,164        184,728           0      184,728
(7/1/03)                              Processing and Distribution Center and Return
6/30/05       48110     17 and 18     Detroit Processing and Distribution Center to the Royal       29,495         39,327       4,916       34,411
(7/1/01)                              Oak Processing and Distribution Center and Return
6/30/07       46311     3 and 4       Gary Processing and Distribution Center to Chicago            61,298        204,326           0      204,326
(8/16/03)                             Metro Surface Hub and Return
6/30/06       46910     3 and 4       Indianapolis Processing and Distribution Center to            29,580         69,020       9,860       59,160
(3/22/03)                             Kokomo Processing and Distribution Facility and Return



                                                                             8
           Highway Network Scheduling – Great Lakes Area                                          NL-AR-04-003



                                                      APPENDIX C. (continued)
                                         TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                                                    PLANT MANAGERS AGREED
  Contract
 End Date
 (Effective
  Date of       Highway                                                                       Annual       Estimated                 Estimated
    Last        Contract      Trip                                                            Budget        Contract    Indemnity      Cost
  Change)        Route       Number                    Origin/Destination                      Cost          Cost          Fees       Savings
6/30/05          47490     803, 804,     Columbus Facility to Cincinnati Bulk Mail Center       154,563       206,084       25,760        180,324
(8/9/03)                   807, 808,     and Return
                           811, 812,
                           815 and
                           816
6/30/07          48811     1 and 2       Lansing Processing and Distribution Center to           28,479        94,931           0         94,931
(7/1/03)                                 Jackson Facility
6/30/06          49314     5 and 6       Grand Rapids Processing and Distribution Center        131,900      307,767       43,967        263,800
(2/22/03)                                to Traverse City Processing and Distribution
                                         Facility and Return
6/30/05          49012     5 and 6       Kalamazoo Processing and Distribution Center to         71,900        95,866      11,983         83,883
(7/1/01)                                 Detroit Processing and Distribution Center and
                                         Return
6/30/06          49110     15 and 16     Kalamazoo Processing and Distribution Center to          9,164        21,383       3,055         18,328
(7/1/02)                                 Grand Rapids Processing and Distribution Center
                                         and Return
6/30/06          496AD     7 and 8       Traverse City Processing and Distribution Facility      14,414        33,632       4,805         28,827
(7/1/02)                                 to Traverse City Airport and Return
6/30/05          601L1     201 and       Carol Stream Processing and Distribution Center         22,572        30,096       3,762         26,334
(9/6/03)                   202           to Schaumburg Facility and Return
6/30/05          601L1     601 and       Carol Stream Processing and Distribution Center         15,927        21,237       2,655         18,582
(9/6/03)                   602           to Elmhurst Facility and Return
                  Total     48 Trips                                                          $1,425,976   $4,039,950    $110,763     $3,929,187




                                                                                9
           Highway Network Scheduling – Great Lakes Area                                           NL-AR-04-003




                                                            APPENDIX D
                                          TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                                                    PLANT MANAGERS DISAGREED
 Contract
End Date
(Effective
 Date of        Highway                                                                         Annual      Estimated                   Estimated
   Last         Contract     Trip                                                               Budget       Contract       Indemnity     Cost
 Change)         Route      Number                      Origin/Destination                       Cost         Cost             Fees      Savings

6/30/06          496AD     3 and 4      Traverse City Processing and Distribution Facility to    $ 12,019    $ 28,044         $ 4,006   $    24,038
(7/1/02)                                Cadillac Facility and Return
6/30/05          48110     37 and       Detroit Processing and Distribution Center to Royal        29,495          39,327       4,916        34,411
(7/1/01)                   38           Oak Processing and Distribution Center and Return
6/30/07          60514     9, 10, 15,   Fox Valley Processing and Distribution Center to           63,568         211,894           0       211,894
(10/11/03)                 and 16       Airport Mail Center O’Hare and Return
6/30/07          60515     9 and 10     Fox Valley Processing and Distribution Center to           21,816          72,720           0        72,720
(7/1/03)                                Carol Stream Processing and Distribution Center
                                        and Return
6/30/07          60518     1, 2, 5,     Fox Valley Processing and Distribution Center to           95,102         317,006           0       317,006
(7/1/03)                   and 6        Chicago Central Facility and Return
6/30/04          605L9     1, 2, 5,     Fox Valley Processing and Distribution Center to           81,107         317,669           0       317,669
(10/21/03)                 and 6        Irving Park Processing and Distribution Center and
                                        Return
6/30/06          61830     11 and       Champaign Processing and Distribution Facility to          61,303         143,040      20,434       122,606
(2/22/03)                  12           Springfield Processing and Distribution Center and
                                        Return
6/30/04          48612     3 and 4      Saginaw Processing and Distribution Center to              68,134         266,857           0       266,857
(7/1/00)                                Lansing Processing and Distribution Center and
                                        Return
                  Total     22 Trips                                                             $432,544   $1,396,557        $29,356   $1,367,201




                                                                                 10
Highway Network Scheduling – Great Lakes Area         NL-AR-04-003



                  APPENDIX E. MANAGEMENT’S COMMENTS




                                                11
Highway Network Scheduling – Great Lakes Area        NL-AR-04-003




                                                12
Highway Network Scheduling – Great Lakes Area        NL-AR-04-003




                                                13
Highway Network Scheduling – Great Lakes Area        NL-AR-04-003




                                                14
Highway Network Scheduling – Great Lakes Area        NL-AR-04-003




                                                15
Highway Network Scheduling – Great Lakes Area        NL-AR-04-003




                                                16
